               Additional Work Is Needed to Determine the
                Extent of Employment Tax Underreporting

                                   August 2005

                       Reference Number: 2005-30-126




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   August 17, 2005



      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                        Pamela J. Gardiner
                                   Deputy Inspector General for Audit

      SUBJECT:                     Final Audit Report – Additional Work Is Needed to Determine the
                                   Extent of Employment Tax Underreporting (Audit # 200530006)


      This report presents the results of our review to evaluate whether the Internal Revenue
      Service (IRS) has an effective strategy to measure employment tax reporting
      compliance. Employment tax is paid to the Department of the Treasury from two
      primary sources, as payroll tax and as self-employment tax. Payroll taxes are primarily
      reported on the Employer’s Quarterly Federal Tax Return (Form 941); self-employment
      tax is reported on the Self-Employment Tax (Schedule SE) attached to a U.S. Individual
      Income Tax Return (Form 1040).
      In summary, the Small Business/Self-Employed (SB/SE) Division has developed an
      extensive Employment Tax Strategy that addresses many facets of employment tax
      compliance. The SB/SE Division’s seven pronged approach includes Tip Income,
      Non-Filers, Workload Identification, Collection, Legislative Initiatives and Education, and
      Reporting Compliance.1 The SB/SE Division’s Strategy has placed emphasis on
      compliance by non-filers, who the SB/SE Division considers particularly egregious.
      However, the reporting compliance portion of the Strategy, while considering certain
      components, does not primarily focus on the reporting compliance of taxpayers that file
      Forms 941, which represent a significant portion of Federal revenues. Several items
      reported on Forms 941, such as wages, other compensation, and income tax withheld,
      are not addressed.



      1
        Reporting compliance can be measured by comparing the tax reported by a taxpayer as opposed to what should be
      reported.
                                                      2

The IRS has recognized that underreporters account for the largest portion of the tax
gap.2 The IRS has addressed employment tax underreporting by self-employed
taxpayers who file Forms 1040 with a Profit or Loss from Business (Schedule C) during
its National Research Program (NRP).3 As a result of the NRP, the IRS now estimates
taxpayers with self-employment income underreport between $51 and $56 billion in
employment tax.
Although the estimate is significant, revenue receipts from self-employed taxpayers
represent a relatively small portion of employment tax revenue. Self-employed
taxpayers reported $41 billion dollars in self-employment tax in Fiscal Year 2004, while
more significantly, employers that filed Forms 941 for the same period reported over
$664 billion in Social Security and Medicare tax. The amount increases to $1.4 trillion
when the amount of Federal income tax withheld from employees is included.4 The tax
gap estimate of $15 billion for employment taxes, which includes Forms 941, is from old
data. Approximately two-thirds of the Federal Government’s revenue receipts are
reported on Forms 941, yet the IRS has not evaluated the extent of tax underreporting
on these forms for at least 15 years.
The IRS currently has data that suggest the Forms 941 are not accurate. The IRS’
Combined Annual Wage Reporting (CAWR) program has data for all Forms 941 and all
of the Wage and Tax Statements (Forms W-2) that have been filed. The IRS stated
there are 720,612 Forms 941 nationwide that do not balance with the Forms W-2 data
for Tax Year 2003. These inaccuracies could represent unpaid tax.
The IRS has been concerned about the tax gap and is currently increasing compliance
resources to address the problem. In addition, the IRS acknowledges its estimate of the
$66 billion to $71 billion tax gap for employment taxes, from both self-employed
taxpayers and those filing employment tax forms, is not accurate. This is because the
tax gap data for taxpayers that file Forms 941, which reports the largest portion of
employment tax revenues, is from outdated data.
We recommended the Commissioner, SB/SE Division, develop methodologies within
the Employment Tax Strategy designed to evaluate the extent of underreporting by
employers. Consideration should be given to incorporating the Form 941 in its NRP
through the examination process, or consider using the CAWR program to evaluate the
accuracy of employment tax data reported on Form 941.
Management’s Response: The Commissioner, SB/SE Division, agreed with our
findings and is planning, as a component of the overall Employment Tax Strategy, to
develop methodologies to evaluate the extent of employment tax underreporting.
Specifically, the SB/SE Division will work with the Office of Research, Analysis, and
Statistics of Income (RAS) to analyze the results of the employment tax questions
included in NRP Phase I; discuss with RAS the inclusion of appropriate questions

2
  The tax gap includes nonfilers, underreporters of tax, and underpayers of tax.
3
  The NRP was designed to measure individual taxpayer reporting compliance for Tax Year 2001.
4
  Internal Revenue Service 2004 Data Book, Publication 55B.
                                          3

regarding Form 941 in the next NRP study; and use the CAWR program as a source of
employment tax examinations and incorporate the results of these examinations into
their measures of reporting compliance. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or Curtis
Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.
 Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting




                                                  Table of Contents


Background ............................................................................................... Page 1
Significant Work Has Been Done in Employment Tax
Compliance ............................................................................................... Page 3
Methodologies Are Needed to Enhance the Employment Tax Strategy.... Page 5

         Recommendation 1: .........................................................................Page 8

Appendix I – Detailed Objective, Scope, and Methodology...................….Page 10
Appendix II – Major Contributors to This Report ....................................... Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Management’s Response to the Draft Report .................... Page 14
  Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                                 Employment tax is paid to the Department of the Treasury
Background
                                 from two primary sources, as payroll tax and as
                                 self-employment tax. Employers are required by law to
                                 withhold employment taxes from wages paid to their
                                 employees. Employment tax includes Federal income tax
                                 withholding and Social Security and Medicare taxes.
                                 Self-employed persons must pay self-employment tax on
                                 their net earnings from self-employment each year.
                                 The following is a list of forms used to file employment
                                 taxes, known as the Form 94X series:

                                 Form 941, Employer’s Quarterly Federal Tax Return, is
                                 used to report Social Security and Medicare taxes as well as
                                 income tax withheld from wages, tips, sick pay, other
                                 compensation, and any advanced earned income credit.
                                 This is a quarterly return due the last day of the month
                                 following the end of the quarter. This form can be filed as a
                                 paper, electronic, magnetic tape, or telefile return.
                                 Form 940, Employer’s Annual Federal Unemployment
                                 (FUTA) Tax Return, is used to report employers’ share of
                                 unemployment contributions based on wages paid to
                                 employees. This is an annual return due on or before the
                                 last day of the month following the end of the calendar year.
                                 Form 943, Employer’s Annual Tax Return for Agricultural
                                 Employees, is used to report wages paid to farm workers.
                                 This is an annual return due on or before the last day of the
                                 month following the end of the calendar year.
                                 Form 945, Annual Return of Withheld Federal Income Tax,
                                 is used to report income tax withholding from non-payroll
                                 distributions or payments. This is an annual return due on
                                 or before the last day of the month following the end of the
                                 calendar year.
                                 Form CT-1, Employer’s Annual Railroad Retirement Tax
                                 Return, is used to report employment taxes on wages paid to
                                 railroad employees. This is an annual return due on or
                                 before the last day of February following the end of the
                                 calendar year.
                                 Schedule SE, which is not part of the Form 94X series, is
                                 used to report self-employment tax on net earnings from
                                 self-employment from a farm or non-farm business. It is

                                                                                        Page 1
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                               filed with the U.S. Individual Income Tax Return
                               (Form 1040).
                               Social Security and Medicare taxes pay for benefits that
                               workers and their families receive under the Federal
                               Insurance Contributions Act (FICA). 1 Social Security taxes
                               pay for benefits under the old age, survivors, and disability
                               insurance part of the FICA. Medicare taxes pay for hospital
                               benefits. Each employee contributes part of these taxes and
                               the employer pays a matching amount. Self-employed
                               taxpayers must also pay Social Security and Medicare taxes
                               in the form of self-employment taxes.
                               The programs funded by employment taxes provide
                               essential benefits to many citizens. The importance of the
                               programs will continue to grow as more citizens reach
                               retirement age.
                               Employment tax represents a significant portion of both
                               Internal Revenue Service (IRS) receipts as well as an
                               estimated significant portion of the tax gap.2
                               Taxpayers filed over 30 million employment tax returns in
                               Fiscal Year (FY) 2004.3 These accounted for the largest
                               component of business tax returns filed and the second
                               largest component of all returns filed after individual
                               income tax returns. The number of these tax returns is
                               expected to increase over 9 percent by the year 2015.4
                               For FY 2004, over $664 billion was reported as FICA
                               payroll taxes. Self-employed taxpayers reported over
                               $41 billion in self-employment taxes for this same period.5
                               This review was performed on the Specialty Programs,
                               Employment Tax Program and the Campus6 Compliance
                               Services, Campus Reporting Compliance, Document
                               Matching program at the IRS’ National Headquarters in

                               1
                                 Federal Insurance Contributions Act, 26 U.S.C. §§ 3301-3128 (1939).
                               2
                                 The tax gap includes nonfilers, underreporters of tax, and underpayers
                               of tax.
                               3
                                 The 30 million returns are the Form 94X Series, IRS Data Book 2004,
                               Publication 55B.
                               4
                                 Calendar Year Return Projections for the United States and IRS
                               Campuses: 2004-2011, Document 6186 (Rev.12-2004).
                               5
                                 IRS Data Book 2004, Publication 55B.
                               6
                                 The data processing arm of the IRS. The campuses process paper and
                               electronic submissions, correct errors, and forward data to the
                               Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                Page 2
  Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                                 Washington, D.C, and the Ogden, Utah, IRS Campus during
                                 the period January through April 2005. The audit was
                                 conducted in accordance with Government Auditing
                                 Standards. Detailed information on our audit objective,
                                 scope, and methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 The IRS Small Business/Self Employment (SB/SE)
Significant Work Has Been
                                 Division has addressed employment tax compliance by
Done in Employment Tax
                                 including some self-employed taxpayers in the National
Compliance
                                 Research Program (NRP)7 and by developing an
                                 employment tax strategy.
                                 Self-employed taxpayers

                                 Self-employed taxpayers file Form 1040 with Profit or Loss
                                 from Business (Schedule C), Supplemental Income and
                                 Loss (Schedule E), or Profit or Loss from Farming
                                 (Schedule F) to report their income and profits. They file
                                 Schedule SE to pay self-employment tax on their net
                                 earnings from self-employment.
                                 Over the course of 3 years, the IRS implemented the NRP
                                 by randomly selecting about 46,000 returns for review and
                                 examination. These audits were largely completed by the
                                 fall of 2004. To gather statistically valid data, the return
                                 selection process for the NRP included an overall sampling
                                 of high-income returns. This enabled IRS researchers to
                                 draw valid conclusions about important subcategories of
                                 taxpayers.
                                 For instance, slightly more than 6 percent of individual
                                 taxpayers filed Schedule C as sole proprietors in Tax Year
                                 (TY) 2001. These taxpayers reflect a wide range of
                                 economic activity. To draw valid conclusions on
                                 Schedule C filers, the NRP examined about 21,000
                                 individuals who filed a Schedule C, slightly less than
                                 46 percent of the total sample.
                                 The IRS now estimates taxpayers who file self-employment
                                 tax returns contribute between $51 and $56 billion to the
                                 employment tax gap. As a result of the work completed on



                                 7
                                  The NRP was designed to measure individual taxpayer reporting
                                 compliance for Tax Year 2001.
                                                                                             Page 3
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                               the NRP, the IRS believes it has an accurate picture of
                               self-employed taxpayer compliance.
                               Employment tax strategy
                               Forms 941 were not in the plans for the NRP, but the IRS
                               knew it needed to develop an employment tax strategy to
                               administer an effective employment tax program. The
                               SB/SE Division chartered a group of representatives to draft
                               an SB/SE Division employment tax strategy that would
                               guide the identification of critical issues and the selection of
                               programs and initiatives to address reporting, filing, and
                               payment noncompliance.
                               The IRS employment tax strategy evolved over a period of
                               years. There were at least 3 separate versions of the strategy
                               issued by the SB/SE Division over a 2-year period.
                               In a version dated February 24, 2004, the IRS weighted
                               13 areas of employment compliance by assigning a score.
                               The higher the score, the more significant the effect on
                               employment tax compliance and the tax gap. Scores were
                               based on the number of taxpayers affected, the effect on the
                               tax gap, the growth of the area, the geography or how much
                               of the country was affected, the impact on resources, and the
                               IRS mission. After the scores were assigned, the 13 areas of
                               employment tax compliance were ranked.
                               A more concise strategy was developed on December 15,
                               2004, to better focus resources on noncompliance and
                               reducing the employment tax gap. There are seven
                               categories in the strategy. They are Tip Income, Non-Filers,
                               Reporting Compliance, Workload Identification, Collection,
                               Legislative Initiatives, and Education. Non-Filer and
                               noncompliance by filers was seen as particularly corrosive
                               to the tax system and considered an area of emphasis.
                               The reporting compliance portion of the employment tax
                               strategy has two parts. The Employment Tax Examination
                               Program (ETEP) and the 1120S8-Officer Compensation
                               Compliance Initiative Project (CIP).
                               The ETEP uses certain information returns filed by
                               corporations to identify misclassified workers. Employers

                               8
                                 The Form 1120S is used by S corporations, which are granted special
                               tax status as specified under the Internal Revenue Code.
                                                                                              Page 4
   Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                                  need to classify workers as either employees or independent
                                  contractors to determine their employment tax liability.
                                  Employers do not pay employment taxes on compensation
                                  paid to independent contractors.
                                  The 1120S-Officer Compensation CIP determines whether
                                  officers who perform services for their S Corporations are
                                  being paid a salary, or if they are receiving distributions to
                                  avoid paying employment taxes.
                                  Consequently, the SB/SE Division’s reporting compliance
                                  strategy identifies businesses that should pay additional
                                  employment taxes. Some individuals are not properly
                                  classified as employees on business returns, and some
                                  1120S Corporations fail to recognize a reasonable salary to
                                  the officer shareholders when they actively operate a
                                  business and perform services. This results in the officer
                                  shareholder paying little or no employment taxes.

                                  Tax data reported on employment tax series Forms 94X, as
Methodologies Are Needed to
                                  mentioned in the background section of this report, have not
Enhance the Employment Tax
                                  been evaluated for over 15 years. Approximately two-thirds
Strategy
                                  of all revenue receipts are reported on the Forms 941. The
                                  items reported on the Forms 941 include Social Security tax,
                                  Medicare tax, and Federal income tax withholding and
                                  totaled nearly $1.4 trillion during FY 2004. However, the
                                  IRS does not know the current level of reporting
                                  compliance. There are currently no plans to include these
                                  returns in the IRS’ NRP to measure reporting compliance.
                                  Contributing to this lack of information is the limited
                                  number of examinations the IRS conducts on these returns.
                                  The examination rate for employment tax returns is less than
                                  a tenth of one-percent, the lowest rate of any business tax
                                  return.9
                                  The current employment tax underreporting data for these
                                  returns is unreliable and has a significant adverse impact on
                                  developing an overall effective employment tax strategy.
                                  As previously mentioned, reporting compliance for
                                  individual taxpayers who are self-employed has been
                                  evaluated. While significant, these taxpayers only report
                                  $41 billion dollars in tax on their forms, contrasted with


                                  9
                                      IRS Data Book 2004, Publication 55B.
                                                                                           Page 5
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                               $664 billion reported on Forms 94X. As illustrated in
                               Figure 1, reporting compliance has not been measured for
                               the largest portion of employment tax revenues.

                                               Figure 1: Business Tax Forms
                                              $664
                                        $700
                                        $600
                                        $500
                                        $400
                                        $300                                        Total Amount
                                        $200                                        Collected
                                                $15                   $56
                                        $100                    $41                 Tax Gap
                                          $0                                        Estimate
                                           Form 94X             Self-
                                            Series           Employment
                                                                Tax
                                                     Amounts In
                                                      Billions

                               Source: IRS 2004 Data Book. The IRS’ tax gap estimate for the
                               Form 94X series which includes Medicare, Social Security, and
                               Unemployment taxes is $15 billion. The estimate is over 15 years old.
                               The tax gap estimate of $56 billion on self-employment taxes is a result
                               of a recently completed NRP.

                               While the President and Congress debate over fixing the
                               Social Security system to ensure future recipients have
                               benefits, the IRS does not know whether all Social Security
                               taxes are being reported and paid.
                               Potential methodologies to enhance the employment tax
                               strategy
                               The actions planned by the IRS to address employment tax
                               reporting compliance, if carried out, will have a positive
                               effect on reducing the tax gap. However, the IRS has
                               existing data that can be used to address other areas of
                               employment tax reporting compliance. The IRS can use
                               both its Combined Annual Wage Reporting (CAWR)
                               program and its Examination program to enhance its
                               employment tax strategy and reduce the tax gap.
                               The CAWR program helps the Social Security
                               Administration (SSA) ensure all workers get credit for the
                               wages they earn towards retirement benefits.

                                                                                                Page 6
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                               When employers file the Forms 941, they also file Wage
                               and Tax Statements (Form W-2) for their employees.
                               Ideally, the amounts on the Forms W-2 should match those
                               reported on Forms 941.
                               The SSA identifies employers who report more wages on
                               the Forms 941 than what they report on the Forms W-2
                               because of concerns over missing Forms W-2. If the
                               Forms W-2 are missing, it could indicate workers are not
                               getting credit for the wages they earned towards Social
                               Security retirement benefits. The IRS’ CAWR program
                               contacts the employer to determine whether there are any
                               missing Forms W-2.
                               When employers report more wages on their Forms W-2
                               than on Forms 941, there could be unreported and,
                               therefore, unpaid tax. These are called IRS-CAWR cases.
                               The IRS has recently decided to work these cases and the
                               results show promise. The IRS does not examine many
                               Forms 941, but when they do, the examinations produce tax
                               revenue.
                               Figure 2 illustrates when employment tax forms are
                               reviewed the results are significant.
                                  Figure 2: Results of Employment Tax Forms When Reviewed

                               IRS Function          Year          Returns         Additional
                                                                   Reviewed        Tax
                                                                                   Assessed
                               CAWR                  Tax Year         58,416       $905,249,357
                                                       2002

                               EXAMINATION             Fiscal         17,698       $422,264,000
                                                       Year
                                                       2004


                               Source: The Examination data were obtained from the IRS 2004 Data
                               Book. The CAWR program data were obtained from the IRS
                               SB/SE Division’s Campus Compliance Services, Campus Reporting
                               Compliance, Document Matching function. The data were the latest
                               available.

                               The CAWR program reviewed TY 2002 Forms 941 and the
                               IRS assessed over $900 million. When all types of

                                                                                           Page 7
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                               employment tax forms in the employment series were
                               reviewed by Examination, they assessed over $400 million.
                               Over $1 billion dollars of additional tax was assessed
                               between the 2 IRS programs.
                               The SB/SE Division Employment Tax Program is going to
                               examine 8,000 returns originating from the CAWR program
                               and over 100,000 CAWR returns will be reviewed by the
                               campuses in FY 2005. According to IRS figures, there are
                               720,612 Forms 941 for TY 2003 nationwide that might owe
                               tax.
                               When the IRS’ CAWR program and Examination function
                               review employment tax forms, they discover significant
                               inaccuracies. The use of these programs can provide the
                               IRS with significant data on employment tax compliance
                               and the tax gap. This data can be used to formulate a more
                               focused employment tax strategy that addresses more
                               significant areas of noncompliance.

                               The IRS should continue to evaluate components of
                               employment tax underreporting to obtain accurate measures
                               of compliance. Better data will help the IRS identify
                               noncompliant segments of the population and will enhance
                               development of methodologies to address employment tax
                               reporting compliance.

                               Recommendation

                                  1. We recommend the Commissioner, SB/SE Division,
                                     within the Employment Tax Strategy, develop
                                     methodologies designed to evaluate the extent of
                                     underreporting by employers. Consideration should
                                     be given to incorporating the Form 941 in the
                                     SB/SE Division’s NRP program through the
                                     examination process, or using the CAWR program
                                     to evaluate the accuracy of employment tax data
                                     reported on Form 941.
                               Management’s Response: As a component of the overall
                               Employment Tax Strategy, the SB/SE Division will develop
                               methodologies to evaluate the extent of employment tax
                               underreporting by working with the Office of Research,
                               Analysis, and Statistics of Income (RAS) to analyze the
                               results of the employment tax questions included in the
                                                                                    Page 8
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                               NRP Phase I. The SB/SE Division will also discuss with
                               RAS the inclusion of appropriate questions regarding
                               Form 941 in the next NRP Study. Phase II of the NRP will
                               focus on flow-through entities and is scheduled to begin in
                               FY 2006. The SB/SE Division will use the CAWR program
                               as a source of employment tax examinations and incorporate
                               the results of these examinations into its measures of
                               reporting compliance.




                                                                                   Page 9
    Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                                                                                                  Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has an effective strategy to measure employment tax reporting compliance. To accomplish
our objective, we:

 I.        Assessed the significance of employment taxes.
           A. Determined what comprises employment taxes and obtained the latest IRS statistics
              on the number of employment tax returns filed and the respective dollar amounts
              reported.
           B. Determined the relevance of employment tax returns by comparing the volume filed
              and the tax reported to other business tax returns.
           C. Obtained and evaluated data from the IRS and other sources on an estimation of
              employment tax reporting noncompliance.
II.        Evaluated the employment tax compliance strategy and the goals the strategy is designed
           to achieve.
           A. Determined if the Small Business/Self Employed (SB/SE) Division has a strategy to
              deal with employment tax noncompliance. We determined the status of the strategy
              and the stage of development or implementation.
           B. Reviewed and evaluated the components and actions of the strategy to determine if
              they will adequately address employment tax noncompliance.
           C. Determined if the components and actions of the employment tax compliance strategy
              include incorporating the IRS’ Combined Annual Wage Reporting program and
              inclusion in the National Research Program.1
           D. Determined how the strategy was developed and whether it addressed employment
              tax noncompliance and, if not, whether and how the IRS otherwise evaluated where
              the employment tax noncompliance exists.
           E. Determined if the strategy is consistent with other SB/SE Division and IRS
              compliance strategies.




1
    The NRP was designed to measure individual taxpayer reporting compliance for Tax Year 2001.

                                                                                                      Page 10
  Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

       F. Evaluated SB/SE Division plans for coordination and communication with other
          operating divisions and other compliance components to develop an overall IRS
          employment tax strategy that will achieve the highest possible rate of compliance.
III.   Determined if the SB/SE Division has adequate plans for monitoring and measuring the
       employment tax strategy’s progress and results.
       A. Determined and evaluated how the employment tax strategy will be measured and
          evaluated to reduce noncompliance.
       B. Reviewed other audits conducted by the Treasury Inspector General for Tax
          Administration or Government Accountability Office that addressed employment tax
          noncompliance and other issues. Determined if the recommendations were addressed
          and implemented.




                                                                                        Page 11
 Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                                                                                Appendix II


                           Major Contributors to This Report

Curtis Hagan, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Richard J. Dagliolo, Director
John J. Chiappino, Audit Manager
Kyle Bambrough, Lead Auditor
Doug Barneck, Senior Auditor
Annette Bates, Senior Auditor




                                                                                      Page 12
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                                                                       Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Quality Assurance and Performance Management SE:LM:Q
Director, Office of Legislative Affairs CL:LA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                             Page 13
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting

                                                                       Appendix IV


                  Management’s Response to the Draft Report




                                                                             Page 14
Additional Work Is Needed to Determine the Extent of Employment Tax Underreporting




                                                                             Page 15
